Securities and Exchange
    Commission
      Office of Inspector General
During the second half of fiscal year 2005, the Office of Inspector
General assisted the Commission to:
     Enhance the effectiveness of the procedures used to
     target B/D compliance inspections and examinations,
     Strengthen the Commission’s Information Technology
     security controls,
     Enhance the integrity of the Commission and its staff by:
        • Investigating allegations of staff and contractor
          misconduct,
        • Inspecting the effectiveness of the integrity program
          in Commission offices, and
        • Identifying the need for additional guidance on
          certain ethics issues,
     Improve the processes for personnel recruitment,
     classification, and staffing,
     Enhance implementation of the Government Performance
     and Results Act,
     Protect sensitive personnel information within the
     Commission,
     Strengthen physical security at the Operations Center and
     controls over contractor IDs, and
     Enhance the effectiveness of operations in the Office of
     the Secretary.
                                                                                   PAGE 2



                                  Executive Summary
During this period (April 1, 2005 to September 30, 2005), the Office of Inspector General
(Office) issued seven audit reports, one audit memorandum, two investigative memoranda on
management issues, and one report on a special project. These evaluations focused on the
Commission’s information technology security program; targeting of broker/dealer
compliance examinations; management of the Office of the Secretary; the ethics program in
the field offices; implementation of the Government Performance and Results Act;
recruitment, classification, and staffing; access to sensitive information in the payroll and
personnel information system (FPPS); ethics guidance for departing employees and
enforcement attorneys on official travel; and Operations Center building security.
Twelve investigations were closed during the period. Six subjects were referred to the
Department of Justice, which declined prosecution of five subjects. The referral of one
subject to the Department of Justice is pending. Nine subjects were referred to the
Commission. Four subjects resigned; one subject was counseled and divested stock causing a
conflict of interest. Four subjects referred to the Commission during this period are awaiting
disposition. In addition, one subject referred during a prior period resigned, and another
agreed to retire. The Investigative Program section below describes the significant cases.
Information resources management (IRM) has been previously reported as a significant
problem. During this period, the Commission continued to improve its management of these
resources, but significant weaknesses remain. We intend to maintain our audit focus in this
important area.
An audit completed in a prior period found that Commission financial management controls
for fiscal year 2002 were effective in all material respects except for controls over property
accountability, accounting and control of disgorgements, information system and security
program controls, and the Disgorgement and Penalties Tracking System. We reported these
exceptions, taken together, as a significant problem.
The Government Accountability Office (GAO) identified similar weaknesses in its audit of
the Commission’s fiscal year 2004 financial statements (except for property accountability -
the value of the property account balance was below the materiality threshold). The
Commission is continuing to take actions to address the weaknesses in financial
management controls.
No management decisions were revised during the period. The Office of Inspector General
agrees with all significant management decisions regarding audit recommendations.



                                            Audit Program
The Office issued seven audit reports, one audit memorandum, two investigative
memoranda on management issues, and one report of a special project during the reporting
period. These documents contained a total of 79 recommendations, which are further


S E C U R I T I E S & E X C H AN G E C O M M I S S I O N                  OCTOBER 31,
2005
                                                                                  PAGE 3


summarized below. Management generally concurred with the recommendations, and in
many cases took corrective actions during the audits.


RECRUITMENT, CLASSIFICATION, AND STAFFING (AUDIT 389)
We reviewed the Office of Human Resource’s (OHR) recruitment, classification, and staffing
procedures to determine whether they were efficient and effective. We found that they
were, for the most part.
Over the last several years, OHR has expanded its recruitment efforts and hired over 1000
new staff as the Commission’s budget increased. To further enhance its procedures, OHR
recently implemented a human resources staffing and classification service, Avue Digital
Services (ADS), to automate the staffing and classification process.
We recommended that the use of ADS be improved by providing additional training to OHR
staff and Commission managers, and by updating position descriptions in the ADS system.
We also recommended improved procedures for terminating management level access to
ADS for separating employees.


TARGETING B/D COMPLIANCE EXAMINATIONS (AUDIT 394)
We reviewed the Commission’s targeting of Broker/Dealer (B/D) compliance examinations.
The Examination program consists of the Office of Compliance Inspections and
Examinations (OCIE) and the Examination staff in the field offices.
We found that the targeting process was generally effective and efficient. The BD
examination program has been incorporating the Commission’s increased emphasis on risk
into its processes (e.g., conducting risk workshops, increasing the use of sweeps and mini-
sweeps, etc.).
We made several recommendations to enhance the BD targeting process by increasing the
likelihood that issues are identified timely. Our recommendations included automating and
integrating risk-based information; assessing and documenting the risk level assigned to
BDs by the Self Regulatory Organizations (SROs); reviewing the goal for conducting
oversight examinations; developing a timeliness performance measure; improving how
investor complaints are used; and preparing financial information.


INSPECTION OF THE INTEGRITY PROGRAM IN FIELD OFFICES
(REPORT 395)
We evaluated the Commission’s integrity programs (i.e., ethics and staff conduct) in four of
five regional offices and four of six district offices. The evaluation used workshops with
Commission field office staff to identify successes, obstacles, recommendations, and
effectiveness ratings for the integrity programs.



S E C U R I T I E S & E X C H AN G E C O M M I S S I O N                 OCTOBER 31,
2005
                                                                                    PAGE 4


The staff generally indicated that the objectives of the integrity programs were being
implemented, although some obstacles were impairing full implementation. As in prior
evaluations, the participants indicated that they felt a personal sense of responsibility for
maintaining the integrity of the Commission.
Most of the participants also indicated that they felt a strong sense of an ethical tradition at
the Commission and that employees live up to the Commission’s integrity expectations.
Workshop participants overwhelmingly reported that integrity is a high priority at, and an
integral value of, the Commission. The participants in the workshops expressed a desire
for better communication of policies from management, more frequent ethics training, and
responsive and well-trained ethics advisors.
We recommended that the Office of Human Resources, in conjunction with the Offices of
the Chairman and Executive Director, implement its plans for an employee manual to
effectively communicate management policies to Commission staff. We also recommended
that the Office of Compliance Inspections and Examinations implement its plans to
establish and train ethics liaisons from the Examination and Inspection Program in each
field office, and to hold an ethics video-conference annually with all the field offices.


GOVERNMENT PERFORMANCE AND RESULTS ACT – 2004
(AUDIT 399)
The Government Performance and Results Act (GPRA) requires verifiable, quantifiable and
measurable program performance measures. Also, agencies must now prepare five-year
strategic plans and annual performance budgets and reports. The performance budgets
should link strategic and long-term performance goals from the strategic plan to annual
performance goals.
We reviewed implementation of GPRA at the Commission. Our objective was to determine
whether the performance measures in the Commission’s FY 2006 performance budget were
developed in accordance with Office of Management and Budget (OMB) guidance, were
useful to management, and provided information on progress toward GPRA goals.
The Office of Financial Management (OFM) facilitated communication between the staff
responsible for selecting the performance measures, and sought senior management
involvement in the process. These activities were recognized as “best practices” by the
National Performance Review.
We found that the GPRA performance measures in the FY 2006 performance budget
generally met OMB’s requirements. However, of the 27 measures in the performance
budget, six did not include required target data. We recommended that, in developing
future performance measures, the Commission ensure that the goals in its performance
budget include targets; use “process analysis” methodology; and use Enterprise
Architecture data from the Office of Information Technology.




S E C U R I T I E S & E X C H AN G E C O M M I S S I O N                    OCTOBER 31,
2005
                                                                                    PAGE 5


OFFICE OF THE SECRETARY (AUDIT 402)
The Commission’s Office of the Secretary has numerous responsibilities. These include
scheduling Commission meetings, administering the Commission's seriatim and duty-
officer processes, operating the Louis Loss Library, and preparing and maintaining records
of Commission actions.
 The Office reviews all staff documents submitted to and approved by the Commission, and
receives and processes documents submitted by outside parties. The Office also provides
advice to the Commission and its staff on questions of practice and procedure, and
publishes official documents in the Federal Register, the SEC Docket, and the
Commission’s website.
Our review of the Office found that it was generally effective and efficient in its operations,
although some controls and procedures needed to be strengthened. Our recommendations
included improving controls over government passports, processing public comment letters
more effectively, considering discontinuation or more efficient publication of the SEC
Docket, posting forms on the Commission’s Intranet site (Insider), improving access
controls for separating employees, and improving the Library’s acquisitions process.


FEDERAL INFORMATION MANAGEMENT SECURITY ACT - 2005
(REPORT 406)
SECURITY CERTIFICATION AND ACCREDITATION OF ACTS PLUS
(AUDIT 409);
SECURITY CERTIFICATION AND ACCREDITATION OF EFOIA SYSTEM
(AUDIT 410);
IT SECURITY CERTIFICATION AND ACCREDITATION PROCESS
(AUDIT 411)
We hired a contractor to evaluate the Commission’s information technology security
program under the provisions of the Federal Information Management Security Act
(FISMA). The contractor prepared answers to the 2005 FISMA questionnaire supplied by
OMB, evaluated two major Commission applications (Acts Plus and EFOIA) using guidance
issued by the National Institute of Standards and Technology (NIST), and evaluated the
overall certification and accreditation process used by the Commission.
We found that the Commission has made significant progress in developing a mature
information security program, and has addressed many previously identified security
vulnerabilities. The Commission reported that it has certified and accredited over half of
its systems (12 of 20), made improvements in its tracking and reporting of Plans of Action
and Milestones (POA&Ms), developed an inventory of Commission systems, and completed
and tested contingency plans for several major applications, among other accomplishments.
We identified a number of significant deficiencies, however. Eight systems, including the
General Support System (on which the security of other major systems rely), have not been
accredited. In our opinion, the certification agent for the twelve certified and accredited
S E C U R I T I E S & E X C H AN G E C O M M I S S I O N                    OCTOBER 31,
2005
                                                                                 PAGE 6


systems was not independent (the same contractor that developed draft system
documentation was hired to certify and accredit the systems). In addition, the processes for
the security test and evaluation and for POA&Ms needed improvement.
We also identified several deficiencies within the ACTS Plus and EFOIA applications,
including system contingency and security issues.


ADDITIONAL EMPLOYEE ETHICS TRAINING (REPORT G-398)
Two investigations recently conducted by our Office showed a need for additional ethics
guidance. Specifically, we recommended that the Office of General Counsel provide clearer
guidance for departing employees, particularly attorneys, on post-employment restrictions
and notification requirements. We also recommended that the Division of Enforcement
provide specialized training for Enforcement attorneys on ethical issues, particularly those
related to official government travel.


ACCESS TO PAYROLL DATA (REPORT G-417)
During a recent investigation, we learned that budget staff in the Office of Financial
Management (OFM) had unrestricted access to the Federal Personnel and Payroll System
(FPPS). Budget staff need FPPS access to process certain personnel actions (e.g.,
promotions) controlled by OFM. However, FPPS information is sensitive and subject to the
Privacy Act, and therefore FPPS access should be restricted to the extent possible.

We recommended that OFM restrict FPPS access (through a request to system owner, the
Department of the Interior) and train its budget staff on the proper use of this sensitive
information, as it planned to do.


OPERATIONS CENTER BUILDING SECURITY
(AUDIT MEMORANDUM 39)
During an investigation, we learned that the Office of Administrative Services (OAS) was
concerned about building security at the Operations Center. OAS’s concerns included
building access and ID keycards issued to contractor employees.
We performed a limited survey on these two issues, and recommended that OAS take steps
to reduce the risk of unauthorized entry to the Operations Center. Also, we recommended
that OAS and the Office of Information Technology improve procedures related to
contractor IDs, including cancellation of the IDs when contractors separate.




S E C U R I T I E S & E X C H AN G E C O M M I S S I O N                 OCTOBER 31,
2005
                                                                                 PAGE 7



                                     Investigative Program
Twelve investigations were closed during the period. Six subjects were referred to the
Department of Justice, which declined prosecution as to five subjects. The referral of one
subject to the Department of Justice is pending. Nine subjects were referred to the
Commission. Four subjects resigned; one subject was counseled and divested stock causing
a conflict of interest. Four subjects referred to the Commission during this period are
awaiting disposition. In addition, one subject referred during a prior period resigned, and
another agreed to retire. The most significant cases closed during the period are described
below.


CONFLICT OF INTEREST
An Office investigation found evidence that a staff member had participated personally and
substantially in a particular matter in which the staff member had a financial interest, in
violation of the conflict of interest laws. The staff member had properly disclosed the
financial interest on the required financial disclosure forms. The staff member was
counseled and divested the financial holdings that exceeded the statutory threshold. The
Department of Justice declined prosecution.


ILLEGAL GRATUITIES AND ETHICS VIOLATIONS
The Office investigated allegations that two staff members had improper relationships with
contractors working on Commission projects and had received illegal gratuities from these
contractors.
We found evidence that one staff member frequently socialized with various contractor
personnel, and accepted meals and gifts from prohibited sources in violation of the ethics
rules. There was also evidence that one contractor performed work in the staff member’s
former residence, possibly for less than fair market value, and that the staff member had
discussed a possible future business relationship with the contractor. The Department of
Justice declined prosecution. The staff member resigned before administrative action was
taken.
Our investigation also found evidence that the second staff member, a supervisor, had
purchased a used vehicle from a contractor, possibly for less than fair market value. There
was also evidence that the supervisor had accepted meals from contractors in violation of
the ethics rules and failed to take corrective action concerning subordinates’ violations of
the ethics rules, of which the supervisor was aware. The Department of Justice declined
prosecution. The supervisor was reassigned to a non-sensitive, non-supervisory post. Final
administrative action is pending.




S E C U R I T I E S & E X C H AN G E C O M M I S S I O N                 OCTOBER 31,
2005
                                                                                 PAGE 8


INFORMATION TECHNOLOGY SECURITY IRREGULARITIES
An Office investigation developed evidence that a trusted employee had circumvented
various information technology security controls, misused computer resources, and
attempted to cover up some of those activities during an OIG audit. We also found evidence
that the staff member violated time and attendance requirements and made threatening
statements in e-mails. The Department of Justice declined prosecution, and the employee
resigned after removal was proposed.


POST EMPLOYMENT VIOLATIONS
An investigation developed evidence that a former senior official violated the applicable
one-year ban on communications with the agency by discussing pending matters with staff
members. We also found evidence that the former senior official’s communications with the
staff violated the permanent ban on communications involving particular matters in which
the former employee had personally and substantially participated while employed at the
agency. We referred the matter to the Civil Division of the Department of Justice and
Commission management; action is pending.
Another Office investigation found evidence that a former staff member had disclosed non-
public Commission information to opposing counsel in a Commission case in violation of
Commission and Bar rules. Information obtained after completion of the investigation
revealed additional similar violations of Commission and Bar rules. We referred the
matter, including the additional information, to Commission management. Administrative
action against the former employee is pending.


SOLICITATION AND ACCEPTANCE OF A GIFT
An investigation found evidence that a supervisor solicited and accepted from a subordinate
free admission passes that the subordinate obtained from a prohibited source. There was
also evidence that the supervisor had accepted other gifts from subordinates in violation of
the ethics rules. The supervisor resigned after demotion to a non-supervisory position was
proposed.


UNAUTHORIZED DISCLOSURE
An investigation found evidence that a staff member had disclosed non-public Commission
information to persons outside the Commission without authorization on several occasions.
We also found evidence that the staff member had been less than candid when questioned
by supervisors and failed to follow supervisory instructions. The Department of Justice
declined prosecution, and the staff member resigned after removal was proposed.




S E C U R I T I E S & E X C H AN G E C O M M I S S I O N                 OCTOBER 31,
2005
                                                                                  PAGE 9



                                      Significant Problems
No new significant problems were identified during the period.



           Significant Problems Identified Previously

FINANCIAL MANAGEMENT SYSTEMS CONTROLS
An OIG contractor completed an audit of Commission financial management systems
controls during a prior period (Audit No. 362). The audit found that Commission financial
management controls for fiscal year 2002 were effective in all material respects, based on
criteria established under the Federal Managers Financial Integrity Act, except for three
material weaknesses and one material non-conformance.
The exceptions concerned property accountability, accounting and control of disgorgements,
information system and security program controls, and the Disgorgement and Penalties
Tracking System. We reported that, taken together, these financial management
exceptions are a significant problem for the Commission. Management concurred with our
recommendations to strengthen these financial controls, and promptly began to take
actions to correct the weaknesses.
The Government Accountability Office (GAO) performed the audit of the Commission’s first
financial statements (for fiscal year 2004). The audit found that the Commission made
significant progress during the year in building a financial reporting structure for
preparing financial statements for audit. GAO also found that the SEC property account
balance was below the threshold for materiality; as a consequence we are removing
property accountability as an element of this significant problem. However, GAO identified
material internal control weaknesses in the areas of preparing financial statements and
related disclosures, recording and reporting disgorgements and penalties, and information
security, which will be the basis for this significant problem in the future.
Management is continuing its actions to address the weaknesses identified by GAO and our
office. GAO will review these actions in connection with its audit of the Commission’s fiscal
year 2005 financial statements, currently under way.


INFORMATION TECHNOLOGY MANAGEMENT
Since 1996, we have reported information technology management (formerly described as
information resources management) as a significant problem based on weaknesses
identified by audits, investigations, and management studies. Significant information
technology (IT) weaknesses of continuing concern include IT capital investment decision-
making; information systems security; administration of IT contracts; IT project


S E C U R I T I E S & E X C H AN G E C O M M I S S I O N                  OCTOBER 31,
2005
                                                                                PAGE 10


management; enterprise architecture (EA) management; and management of software
licenses.
During this reporting period, the Office of Information Technology (OIT) took numerous
steps to improve IT management. OIT indicated that these steps included:
    •    Capital Investment Decision-Making: implementing an enterprise-wide IT
         investment portfolio process, which resulted in the Commission’s designated
         decision authorities reviewing and approving 90 percent of the Commission’s
         Development, Modernization, and Enhancement budget; and providing Capital
         Planning and Investment Control (CPIC) decision authorities monthly IT portfolio
         status reports to facilitate the monitoring and timely management of investment
         schedules and cost slippages.
    •    Information Systems Security: certifying and accrediting over half of the
         Commission’s major systems (12 out of 20); completing and testing contingency
         plans for several major applications; initiating a Privacy Impact Assessment
         program; making improvements to the process for tracking and reporting Plans of
         Action & Milestones (POA&Ms) to OMB; tracking information security costs through
         the CPIC process; relocating the backup data center outside Washington, DC; and
         establishing a project plan to implement Homeland Security Directive 12, which will
         integrate physical and IT access controls with federal requirements and best
         practices.
    •    Administration of IT Contracts and Project Management: achieving Federal
         Level 2 IT project manager certification for 90 percent of the Project Management
         Office’s (PMO) project managers; establishing a project baseline change
         management process that requires decision authority review and approval prior to
         changing a project’s cost and schedule; and initiating a project close-out process
         which provides the Commission’s decision authorities documented results and
         lessons learned for each IT project.
    •    Enterprise Architecture: completing and releasing an EA Communication Plan;
         continuing validation of the Business Reference Model with Commission business
         units; completing development of prescribed EA frameworks; starting the
         development of a high-level Data Reference Model, Service Reference Model, and
         Technical Reference Model; and improving the Commission’s Change Management
         Process.
    •    Software Licensing: consolidating software license management into the Asset
         Management Branch, which serves as the central manager for all enterprise license
         acquisition and renewal actions; actively monitoring software use on all SEC
         workstations through the use of Microsoft SMS 2003 and the application’s inventory
         module; using BigFix to review software operating on all SEC workstations; and
         establishing an official inventory list of applications authorized and supported on
         the SEC’s network.

During this period, we evaluated the Commission’s information security program (required
by the Federal Information Security Management Act). See the Audit Program section
above.


S E C U R I T I E S & E X C H AN G E C O M M I S S I O N                 OCTOBER 31,
2005
                                                                                 PAGE 11


Although OIT continues to take action to address and correct many of the longstanding IT
weaknesses that we have reported, we still consider IT management to be a significant
problem. We intend to continue our oversight of the Commission’s progress in correcting the
many longstanding weaknesses in its IT business processes and management controls.



                                    Access to Information
The Office of Inspector General has received access to all information required to carry out
its activities. No reports to the Chairman, concerning refusal of such information, were
made during the period.



                                               Other Matters

AUDIT OF COMMISSION FINANCIAL STATEMENTS
Under the Accountability of Tax Dollars Act, the Commission is now required to prepare
audited financial statements.
The U.S. General Accounting Office is currently completing the financial statement audit of
the Commission for fiscal year 2005, and is expected to perform the audit for fiscal year
2006. Our Office is evaluating whether it will be required to conduct this audit in fiscal
year 2007 and subsequent years.


EXTERNAL COORDINATION
The Office actively participates in the activities of the Executive Council on Integrity and
Efficiency (ECIE). The Inspector General attends ECIE meetings and is an active member
of its Financial Regulatory Institutions Committee. He also serves as a member of the
Integrity Committee (established by Executive Order No. 12993).
The Deputy Inspector General is an active member of the Federal Audit Executive Council
(FAEC). The FAEC considers audit issues relevant to the Inspector General community.
The Counsel to the Inspector General is an active member of the PCIE Council of Counsels.
The Council considers legal issues relevant to the Inspector General community.




S E C U R I T I E S & E X C H AN G E C O M M I S S I O N                  OCTOBER 31,
2005
                                                                                 PAGE 12




                                       Questioned Costs

                                                                        DOLLAR VALUE
                                                                       (IN THOUSANDS)


                                                                    UNSUPPORTED     QUESTIONED
                                                           NUMBER      COSTS          COSTS
A          For which no management decision
           has been made by the
           commencement of the reporting                     0           0                 0
           period

B          Which were issued during the
           reporting period
                                                             0           0                 0

           Subtotals (A+B)                                   0           0                 0

C          For which a management decision                   0           0                 0
           was made during the reporting
           period

    (i)    Dollar value of disallowed costs                  0           0                 0

    (ii)   Dollar value of costs not                         0          0                  0
           disallowed

D          For which no management                           0          0                  0
           decision has been made by the end
           of the period

           Reports for which no management                   0          0                  0
           decision was made within six
           months of issuance




S E C U R I T I E S & E X C H AN G E C O M M I S S I O N                    OCTOBER 31,
2005
                                                                               PAGE 13




                 Recommendations That Funds Be Put To
                           Better Use
                                                                     DOLLAR VALUE
                                                           NUMBER   (IN THOUSANDS)
A               For which no management decision
                has been made by the commencement
                                                             1            132
                of the reporting period
B               Which were issued during the
                reporting period
                                                              0            0


                Subtotals (A+B)                               1           132
C               For which a management decision              1            132
                was made during the period
      (i)       Dollar value of recommendations that         0             0
                were agreed to by management
            -   Based on proposed management                 0             0
                action
            -   Based on proposed legislative action         0             0
      (ii)      Dollar value of recommendations that         1            132
                were not agreed to by management
D               For which no management decision
                has been made by the end of the
                                                             0             0
                reporting period
                Reports for which no management
                decision was made within six months
                                                             0             0
                of issuance




S E C U R I T I E S & E X C H AN G E C O M M I S S I O N               OCTOBER 31,
2005
                                                                              PAGE 14




           Reports with No Management Decisions
A management decision has been made on our recommendation that $132,000 be put to
better use (Audit No. 376, Telephone Card Program, summarized in a previous semi-annual
report). In that audit, we had recommended that apparently erroneous charges totaling
$132,000 for regional telephone service be recovered from the General Services
Administration (GSA), and future billings from GSA be reviewed for accuracy. In its
response to our prior Semi-Annual Report, management indicated that the charges from
GSA were proper, and that no refund was due the Commission.



                     Revised Management Decisions
No management decisions were revised during the period.



           Agreement with Significant Management
                         Decisions
The Office of Inspector General agrees with all significant management decisions regarding
audit recommendations.




S E C U R I T I E S & E X C H AN G E C O M M I S S I O N               OCTOBER 31,
2005
                      MANAGEMENT RESPONSE OF
               THE SECURITIES AND EXCHANGE COMMISSION
    ACCOMPANYING THE SEMIANNUAL REPORT OF THE INSPECTOR GENERAL
         FOR THE PERIOD APRIL 1, 2005 THROUGH SEPTEMBER 30, 2005


Introduction

The Semiannual Report of the Inspector General (IG) of the Securities and Exchange
Commission (SEC) was submitted to the Chairman on October 31, 2005 as required by the
Inspector General Act of 1978, as amended. The report has been reviewed by a member of the
Executive Staff, Executive Director, General Counsel, and Director of the Division of
Enforcement. The Management Response is based on their views and consultation with the
Chairman.

The Management Response is divided into four sections to reflect the specific requirements
listed in Section 5(b) of the Inspector General Act of 1978, as amended.

                                        Section I
                   Comments Keyed to Significant Sections of the IG Report

A. Audit Program

     During the reporting period, the IG issued seven audit reports, one audit memoranda, two
     investigative memoranda and one special project report. Management generally concurred
     with the findings and recommendations in the IG’s reports.

     In addition to audits performed by the agency’s IG, the Government Accountability Office
     (GAO) actively reviewed program and administrative functions of the SEC. A complete
     listing of all GAO audit activity involving the SEC is attached as Appendix A.

B.    Response to Significant Problems

      No new significant problems were identified by the IG during this reporting period.

C. Response to Significant Problems Previously Identified

     Financial Management System Controls

     The Inspector General continues to report financial management system controls as a
     significant problem. As noted in the IG’s Semiannual Report, a 2002 audit of the
     Commission’s financial management system controls found weaknesses related to property
     accountability, accounting and control of disgorgements, and information system security
     controls. Prior FMFIA reports and recent Government Accountability Office audits of the
     SEC’s financial statements also confirmed that controls in these areas need strengthening,
     with the exception of property accountability.

                                                                                              
The SEC has been working aggressively to strengthen controls as soon as possible. A
sampling of the actions taken during fiscal 2005 follows.

   •   Completed a review of disgorgement and penalty financial data.

   •   Completed the requirements analysis for replacement of the financial system that
       stores financial data related to disgorgements and penalties.

   •   Expanded financial management staff.

   •   Drafted, expanded or completed many accounting policies and procedures.

   •   Reconciled some subsidiary records on a monthly basis.

   •   Certified and accredited over half of the SEC’s major systems.

   •   Established a security policy framework and initiated the publication of over 25
       security directives.

   •   Provided security training to over 4,200 SEC employees and contractor staff.

Strengthening financial management system controls is a major operational objective in
fiscal 2006.

Information Resources Management

The SEC is working continually to strengthen its management of information technology, as
reflected in the IG’s Semiannual Report. A sampling of the actions taken during this
reporting period follows.

   •   Implemented an enterprise-wide IT investment portfolio process.

   •   Established controls that provide capital planning and investment control decision-
       making authorities key IT investment information necessary to make effective
       funding decisions and to monitor and evaluate progress of approved IT investments.

   •   Updated the enterprise architecture repository and modeling capabilities with the
       procurement of industry standard repository and modeling tools.

   •   Developed an enterprise architecture framework and reference models for aligning
       with the Federal Enterprise Architecture and for developing, disseminating, and
       using the enterprise architecture in the conception, approval, and management of IT
       investments with the SEC.
                                          2
     These efforts will continue in fiscal 2006, as the SEC continues to mature its IT
     management and governance processes and controls.

D. IG Recommendations Concerning Use of Funds

     None.

E.   Reports with No Management Decisions

     Management decisions have been made on all audits issued prior to the beginning of the
     reporting period (April 1, 2005).

F.   Revised Management Decisions

     No management decisions were revised during the reporting period.




                                                 3
SEC Management Response to
Semiannual IG Report
April 1, 2005 – September 30, 2005


                                          SECTION II
                                        Disallowed Costs
                                    As of September 30, 2005


                                                                   Dollar Value
                                                          Number   (in thousands)

A.     For which final action has
       not been taken by the
       commencement of the
       reporting period                                        0          $0

B.     On which management decisions
       were made during the reporting
       period                                                  0          $0

       (Subtotal A+B)                                          0          $0

C.     For which final action was
       taken during the reporting
       period                                                  0          $0

       (i)    Recovered by management                          0          $0

       (ii)   Disallowed by management                         0          $0

D.     For which no final action has
       been taken by the end of the
       reporting period                                        0          $0




                                               4
SEC Management Response to
Semiannual IG Report
April 1, 2005 – September 30, 2005


                                           SECTION III
                                      Funds Put to Better Use
                                     As of September 30, 2005


                                                                  Dollar Value
                                                         Number   (in thousands)

A.     For which final action has
       not been taken by the
       commencement of the
       reporting period                                    0             $0

B.     On which management decisions
       were made during the reporting
       period                                              0             $0

C.     For which final action was
       taken during the reporting
       period:

       (i)    Dollar value of recom-
              mendations that were
              agreed to by management                      0             $0

       (ii)   Dollar value of recom-
              mendations that management
              has subsequently concluded
              should/could not be
              implemented or completed                     0             $0

D.     For which no final action has been
       taken by the end of the reporting period            0             $0




                                                  5
                                                                                   SEC Management Response to
                                                                                   Semiannual IG Report
                                                                                   April 1, 2005 – September 30, 2005

                                                    SECTION IV
                                        Open Audit Reports Over One Year Old
                                              As of September 30, 2005


                                          Funds Put to
                                            Better Use          Questioned Costs
Audit #   Audit Title        Issued       (in thousands)         (in thousands)    Reason Final Action Not Taken

220       IRM Planning and
          Execution          3/26/1996        $0                      $0           An overarching policy framework
                                                                                   was implemented in fiscal 2005, which
                                                                                   addresses all aspects of IT management.
                                                                                   Individual policies and procedures are
                                                                                   being prepared as resources and priorities
                                                                                   permit.

243       SECOA Local Area
          Network            3/21/1997        $0                      $0           A major effort is underway to certify and
                                                                                   accredit existing major applications and
                                                                                   general support systems. This effort is
                                                                                   expected to be completed in 2006.

257       Client Server      9/9/1997         $0                      $0           See explanation for audit #220 above.



                                                            6
                                                                                         SEC Management Response to
                                                                                         Semiannual IG Report
                                                                                         April 1, 2005 – September 30, 2005

                                                         SECTION IV
                                             Open Audit Reports Over One Year Old
                                                   As of September 30, 2005


                                                 Funds Put to
                                                   Better Use         Questioned Costs
Audit #   Audit Title               Issued       (in thousands)        (in thousands)     Reason Final Action Not Taken

309       Telecommunications
          Vulnerabilities           3/31/2000        $0                     $0            Extensive revision is underway to all IT
                                                                                          policies.

320       General Computer Controls 12/26/2000         $0                   $0            The recommendations are being addressed
                                                                                          as part of the remediation efforts underway
                                                                                          as a result of the audits of SEC’s financial
                                                                                          statements.

327       General Computer
          Controls—Regions          2/28/2001        $0                     $0            See explanation for audit #220.




                                                                  7
                                                                                             SEC Management Response to
                                                                                             Semiannual IG Report
                                                                                             April 1, 2005 – September 30, 2005

                                                           SECTION IV
                                               Open Audit Reports Over One Year Old
                                                     As of September 30, 2005


                                                 Funds Put to
                                                  Better Use              Questioned Costs
Audit #   Audit Title               Issued           (in thousands)       (in thousands)      Reason Final Action Not Taken

337       IT Project Management     1/24/2002        $0                        $0             See explanation for audit #220.

346       Commission Oversight of
            NAFI                    3/7/2002           $0                      $0             Given changing circumstances since the
                                                                                              issuance of the audit report, including the
                                                                                              nature of the Recreation and Welfare
                                                                                              Association’s funding sources, management
                                                                                              is determining the efficacy of maintaining
                                                                                              the Association.
350       Administration of IT
          Contracts                 8/28/2002          $0                       $0            Formal policies and procedures regarding
                                                                                              training and experience requirements for
                                                                                              delegated procurement authority will be
                                                                                              issued after OMB issues training standards.




                                                                      8
                                                                                          SEC Management Response to
                                                                                          Semiannual IG Report
                                                                                          April 1, 2005 – September 30, 2005


                                                            SECTION IV
                                                Open Audit Reports Over One Year Old
                                                      As of September 30, 2005

                                                Funds Put to
                                                  Better Use         Questioned Costs
Audit #   Audit Title               Issued      (in thousands)        (in thousands)    Reason Final Action Not Taken

351       EDGAR Utility to
          Commission Staff          1/15/2003         $0                   $0           Post-acceptance corrections are being
                                                                                        addressed. The outcome will
                                                                                        become part of the requirements for a
                                                                                        follow-on contract, which should be signed
                                                                                        in 2006.

353       Regional Telecommuni-
          cations Security          8/20/2002       $0                     $0           See explanation for audit #309.

361       Commission Web Security   9/30/2002         $0                   $0           See explanation for audit #320.

362       Financial Management
          System Controls           3/27/2003         $0                   $0           See explanation for #320.



                                                                 9
                                                                                          SEC Management Response to
                                                                                          Semiannual IG Report
                                                                                          April 1, 2005 – September 30, 2005

                                                          SECTION IV
                                              Open Audit Reports Over One Year Old
                                                    As of September 30, 2005


                                                 Funds Put to
                                                   Better Use          Questioned Costs
Audit #   Audit Title                Issued      (in thousands)         (in thousands)    Reason Final Action Not Taken

365       IT Capital Investment
          Decision-making Followup   3/29/2004         $0                    $0           A charter for the SEC’s Capital Planning
                                                                                          Committee and several policy documents
                                                                                          are being reviewed by the Office of
                                                                                          General Counsel.

368       SEC Recreation and
          Welfare Asso. Financial
          Management                 7/31/2003         $0                    $0           See explanation for audit #346.

371       Small Business Reg D
          Exemption Process          3/31/2004         $0                    $0           The two remaining recommendations
                                                                                          are being addressed as part of a rule-
                                                                                          making initiative. A process has been
                                                                                          worked out to coordinate development
                                                                                          of the rule proposals with state securities
                                                                                          regulators.

                                                                  10
                                                                                          SEC Management Response to
                                                                                          Semiannual IG Report
                                                                                          April 1, 2005 – September 30, 2005

                                                         SECTION IV
                                             Open Audit Reports Over One Year Old
                                                   As of September 30, 2005


                                                 Funds Put to
                                                   Better Use          Questioned Costs
Audit #   Audit Title               Issued       (in thousands)         (in thousands)       Reason Final Action Not Taken

376       Telephone Card Program    11/17/2003         $0                    $0              A formal policy document is expected
                                                                                             to be completed by calendar year-end.

377       Lost and Stolen
          Securities Program        3/31/2004          $0                    $0              Certain issues related to the program are
                                                                                             under review by the Lost and Stolen
                                                                                             Securities Program Advisory
                                                                                             Board. Those issues are expected to
                                                                                             be resolved by calendar year-end.

383       Targeting IA/IC Compliance 9/29/2004         $0                    $0
          Examinations                                                                       A task force is studying how to enhance
                                                                                             the Commission’s surveillance of
                                                                                             investment advisers.




                                                                  11
                                                                                       SEC Management Response to
                                                                                       Semiannual IG Report
                                                                                       April 1, 2005 – September 30, 2005

                                                        SECTION IV
                                            Open Audit Reports Over One Year Old
                                                  As of September 30, 2005


                                              Funds Put to
                                                Better Use          Questioned Costs
Audit #   Audit Title            Issued       (in thousands)         (in thousands)       Reason Final Action Not Taken

385       Office of Economic
          Analysis               6/29/2004          $0                    $0              Efforts are underway to define a
                                                                                          form of publication that is viewed as
                                                                                          the work of staff and to implement a
                                                                                          working paper series.

M33       Unclaimed Commission
          Property               11/12/2003         $0                    $0              The staff is determining the appropriate
                                                                                          state authorities to contact and whether
                                                                                          there are any restrictions in implementing
                                                                                          the open audit recommendation.

G-404     Legal Review of
          Procurement Actions    9/3/2004           $0                    $0              A policy document is being drafted to
                                                                                          satisfy the one remaining open
                                                                                          recommendation.


                                                               12
                                                                    APPENDIX A


                GOVERNMENT ACCOUNTABILITY OFFICE AUDIT ACTIVITY
               INVOLVING THE SECURITIES AND EXCHANGE COMMISSION


Reports Completed During the Reporting Period

    1.    Mutual Fund Trading Abuses: Lessons Can Be Learned from SEC Not Having Detected
          Violations at an Earlier Stage (GAO-05-313, April 2005)

    2.    Financial Audit: Securities and Exchange Commission’s Financial Statements for Fiscal
          Year 2004 (GAO-05-244, May 2005)

    3.    Mutual Fund Trading Abuses: SEC Consistently Applied Procedures in Setting Penalties,
          but Could Strengthen Certain Internal Controls (GAO-05-385, May 2005)

    4.    USA Patriot Act: Additional Guidance Could Improve Implementation of Regulations
          Related to Customer Identification and Information Sharing Procedures (GAO-05-412,
          May 2005)

    5.    Securities Markets: Decimal Pricing has Contributed to Lower Trading Costs and a More
          Challenging Trading Environment (GAO-05-535, May 2005)

    6.    Conversions of Selected Employees from Noncareer to Career Positions at Departments
          and Certain Agencies (GAO-05-584R, June 9, 2005)

    7.    Information Security Practices: Financial Market Organizations Have Taken Steps to
          Protect Against Electronic Attacks, but Could Take Additional Actions (GAO-05-679R,
          June 29, 2005)

    8.    Federal Student Loan Repayment Program: OPM Could Build on Its Efforts to Help
          Agencies Administer the Program and Measure Results (GAO-05-762, July 2005)

    9.    Public Utility Holding Company Act: Opportunities Exist to Strengthen SEC’s
          Administration of the Act (July 2005)

    10.   Material Internal Control Issues Reported in SEC’s Fiscal Year 2004 Financial Statement
          Audit Report (GAO-05-691R, July 27, 2005)

    11.   Management Report: Opportunities for Improvements in SEC’s Internal Controls and
          Accounting Procedures (GAO-05-693R, August 12, 2005)

    12.   Mutual Fund Industry: SEC’s Revised Examination Approach Offers Potential Benefits,
          but Significant Oversight Challenges Remain (GAO-05-415, August 2005)

                                                                                            
 13.     Globalization: Numerous Federal Activities Complement U.S. Business’s Global
         Corporate Social Responsibility Efforts (GAO-05-744, August 2005)

 14.     SEC and CFTC Penalties: Continued Progress Made in Collection Efforts, but Greater
         SEC Management Attention is Needed (GAO-05-670, August 2005)

 15.     Agency Telework Methodologies (GAO-05-1055R, September 27, 2005)

 16.     Industrial Loan Corporations: Recent Asset Growth and Commercial Interest Highlight
         Differences in Regulatory Approach (GAO-05-621, September 2005)

 17.     Tax Administration: Systematic Information Sharing Would Help IRS Determine the
         Deductibility of Civil Settlement Payments (GAO-05-747, September 2005)


Projects Active as of September 30, 2005

1.     Workforce Planning (250234). A review of the SEC’s strategic workforce planning efforts,
       including the extent to which SEC has (1) established a workforce planning process that is
       aligned with its mission and programmatic goals and (2) developed and implemented long-
       term strategies for acquiring, developing, and retaining staff necessary to achieve these
       goals.

2.     Social Security Numbers and Third Party Contracting (130395). A review of the uses and
       protections of social security numbers.

3.     Whois Database (310724). A study to (1) determine the prevalence of patently false
       contact data in the Whois database for “legacy” generic top-level domains, (2) report the
       steps the Commerce Department and the Internet Corporation for Assigned Names and
       Numbers have taken to ensure the accuracy of contact data in the database, and (3)
       determine whether tools and technologies are available to help reduce the amount of false
       information that is entered into the database.

4.     Military Insurance Sales (250166). A review of the financial products that are commonly
       marketed to military service members, the regulatory oversight associated with marketing
       and sale of these products on military installations, the regulatory oversight and consumer
       protections afforded military personnel compared to those afforded the general public, and
       how regulators assess the suitability of such products.

5.     Pay Systems (842157). A review of public and private sector organizations’ experiences in
       designing and implementing pay systems that are intended to be performance-based and
       market sensitive. Through meetings with SEC, GAO plans to determine if SEC’s pay
       system could be used as a possible example to illustrate how a specific design or
       implementation issue is being addressed.


                                                 2
6.    EEO Leadership Survey (450307). A government-wide survey of (1) how agencies are
      structured to meet EEO, affirmative employment and workforce diversity requirements, (2)
      the extent to which human capital and EEO managers perceive that these requirements
      contribute to EEO, affirmative employment, and workforce diversity objectives, and (3)
      how human capital and EEO managers view the guidance and feedback central leadership
      agencies provide.

7.    Federal Energy Programs (360415). A review of how the Federal Government is working
      to meet the nation’s energy needs. GAO’s contact with SEC will focus on issues relating to
      oversight of the Public Utility Holding Company Act and any involvement SEC has had
      with the National Energy Policy.

8.    Effects of Sarbanes-Oxley on Small Business (250224). A review of (1) the effects of the
      Act on small companies, (2) the extent to which financial institutions and states are
      requiring small privately-held companies to comply with provisions of the Act and the
      corresponding impacts, and (3) the impact, if any, the Act has had on small accounting and
      auditing firms.

9.    Decimalization (250195). A review of the impact decimalization has had on the securities
      markets, securities market participants, and institutional and retail investors.

10.   FY 2005 Financial Statement Audit. An audit of the SEC’s fiscal year 2005 financial
      statements.




                                               3
